"SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

John. R Muenster

20-225
v.

Disciplinary Board of the Washington State Bar Association

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple „respondents, and I do not: :represent all. 'regpondentS, Please enter my
appearance as V•Otihel of Record far thefoll6Wing respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a B. membe
Signature

9/8/ 020

Date.

(Type or print) Name

Scott G. Busby, Senior Disciplinary Counsel
F Mr.

Firm

❑ Ms.

❑ Mrs.

❑ Miss

Office of Disciplinary Counsel, Washington State Bar Association

Address

1325 4th Ave Ste 600

City & State
Phone

Seattle, WA

(206) 733-5998

Zip
Email

98101

scottb@wsba.org

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: John R. Muenster, PO Box 30108, Seattle, WA 98113

RECEIVED
SEP 2 3 2020
FFICE OF THE CLERK
SUPREME COURT, U.S.

